Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




    HOSPITAL CLOSURE: 1997




                   JUNE GIBBS BROWN
                    Inspector General

                      JANUARY 1999
                      OEI-04-98-00200
                        OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, is to
protect the integrity of the Department of Health and Human Services programs as well as the
health and welfare of beneficiaries served by them. This statutory mission is carried out through a
nationwide program of audits, investigations, inspections, sanctions, and fraud alerts. The
Inspector General informs the Secretary of program and management problems and recommends
legislative, regulatory, and operational approaches to correct them.

                          Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) is one of several components of the Office of
Inspector General. It conducts short-term management and program evaluations (called
inspections) that focus on issues of concern to the Department, the Congress, and the public. The
inspection reports provide findings and recommendations on the efficiency, vulnerability, and
effectiveness of departmental programs.

OEI's Atlanta Regional Office prepared this report under the direction of Jesse J. Flowers,
Regional Inspector General, and Christopher Koehler, Deputy Regional Inspector General.
Principal OEI staff included:

REGION                                               HEADQUARTERS

Graham Rawsthorn, Team Leader
                      Tricia Davis, Program Specialist
Ron Kalil, Contractor
                       Scott Horning, Technical Support
Greg Jones, Program Analyst

Janet Miller, Program Analyst

Peggy Daniel, Program Analyst

                    EXECUTIVE SUMMARY

PURPOSE

To describe the extent, characteristics, reasons for, and impact of hospital closure in 1997.

BACKGROUND

The closure of hospitals in past years has generated public and congressional concern. We
released a report in May 1989 describing the nationwide phenomenon of hospital closure in 1987.
Subsequently, we issued annual reports for hospital closures from 1988 through 1996.

The findings from all the OIG studies of hospital closures are similar. The hospitals that closed
were small and had low occupancy rates. When the hospitals closed, few patients were affected.
Most could get medical care nearby.

FINDINGS

Our inspection of hospital closures in 1997 produced findings similar to those previously reported
for 1987-1996.

 !	    Thirty-eight general, acute care hospitals closed -- 0.8 percent of all hospitals. One more
       hospital closed in 1997 than in each of the previous two years. Two new general, short
       term, acute care hospitals opened in 1997, and one hospital that had previously closed
       reopened in 1997.

 !	    Ten of the closed hospitals were rural and 28 were urban. A higher percentage of urban
       hospitals (1.1%) closed in 1997 than did rural hospitals (0.5%).

 !	    Closed hospitals in both rural and urban areas were smaller on average than the national
       averages.

               Rural hospitals that closed had an average of 48 beds as compared to an average
               of 68 beds for all rural hospitals nationally.

               Urban hospitals that closed had an average of 122 beds as compared to an average
               of 222 beds for all urban hospitals nationally.

 !	    Occupancy rates for closed rural and urban hospitals were lower on average than the
       national averages.

               Rural hospitals that closed had an average occupancy rate of 26.9 percent as
               compared to an average of 32 percent for all rural hospitals nationally. The
               average daily census in the year prior to closure was about 13 patients.


                                          )))))))))))
                                               i
            Urban hospitals that closed had an average occupancy rate of 38.8 percent as
            compared to an average of 48 percent for all urban hospitals nationally. The
            average daily census in the year prior to closure was about 47 patients.

!	   Medicare utilization in closed hospitals was higher than the national average for rural
     hospitals, and lower for urban hospitals.

            In rural areas, the average Medicare utilization among hospitals that closed was
            65.6 percent compared to an average of 59 percent for all rural hospitals
            nationally. About nine Medicare patients were in the hospital on an average day in
            the year prior to closure.

            In urban areas, the average Medicare utilization among hospitals that closed was
            40.5 percent compared to an average of 48 percent for all urban hospitals
            nationally. About 19 Medicare patients were in the hospital on an average day in
            the year prior to closure.

!	   Medicaid utilization in closed hospitals was lower than the national average for rural
     hospitals, and higher for urban hospitals.

            In rural areas, the average Medicaid utilization among hospitals that closed was
            7.2 percent as compared to an average of 12 percent for all hospitals nationally.

            In urban areas, the average Medicaid utilization among hospitals that closed was
            17.1 percent as compared to an average of 14 percent for all urban hospitals
            nationally.

!	   No single factor or event caused hospitals to close. Hospitals closed because of the
     interrelated factors of declining occupancy, lagging revenues, and rising costs. Hospital
     viability depends on the stability of all three factors. The weakening of any one of these
     factors may begin a chain reaction eventually leading to hospital closure.

!	   Although residents in a few communities had to travel greater distances for hospital care,
     most had emergency and inpatient medical care available within 10 miles of a closed
     hospital.

!	   At the time of our inspection, 25 of the 38 closed hospital facilities (66 percent) were
     being used for health-related services. Also, plans were being made to use 2 of the
     remaining 13 vacant hospitals for health-related services.




                                       )))))))))))
                                            ii
                              TABLE OF CONTENTS

                                                                                                                                PAGE
EXECUTIVE SUMMARY

INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


FINDINGS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3


          Extent and Characteristics of Closed Hospitals . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3


                     How Many Closed . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3


                     Where They Were . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3


                     What They Were Like . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4


          Reasons for Hospital Closure . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7


          Impact of Hospital Closure . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7


                     How Many Patients Were Affected . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8


                     What Inpatient Care and Emergency Services Are Available . . . . . . . . . . . . . . . . 8


                     What the Building Is Used for Now . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10


APPENDICES

          Methodology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . A-1


          Number of Hospital Closures by State . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . B-1


          Hospital Closures by Hospital Name and Location . . . . . . . . . . . . . . . . . . . . . . . . . . . C-1

                             INTRODUCTION

PURPOSE

To describe the extent, characteristics, reasons for, and impact of hospital closure in 1997.

BACKGROUND

In the past, closure of general, acute care hospitals has generated public and congressional
concern. Numerous questions had been raised about the impact of hospital closure in the United
States, as well as implications for public policy. A number of studies predicted that more
hospitals would close in coming years.

In response to these concerns, the Office of Inspector General released a report in May 1989
describing the phenomenon of hospital closure during 1987 in the United States. We found that
the hospitals that closed were small and their closing did not severely affect access to care. Many
users of our 1987 hospital closure study encouraged us to continue year-by-year analyses of the
phenomenon to detect differences in the rate of hospital closure, and in the characteristics and
circumstances of hospitals that close.

Similar inspections on hospital closures in 1988 through 1994 showed a downward trend in the
number of closures. In 1995 and 1996, hospital closures more than doubled that of 1994, but
were still less than in any other year since we began this series of reports.




                                          )))))))))))
                                               1
The findings from the 1987 through 1996 inspections were similar. The hospitals that closed
were small and had low occupancy rates. When the hospitals closed, few patients were affected.
Most could get medical care nearby.

SCOPE

We examined hospitals that closed in calendar year 1997.

For purposes of this study, the following definitions were used.

Hospital: A facility that provides general, short-term, acute medical and surgical inpatient
services.

Closed Hospital: A facility that stopped providing general, short-term, acute inpatient services in
1997. If a hospital merged with or was sold to another hospital but the physical plant continued
to provide inpatient acute care, it was not considered a closure. If a hospital both closed and
reopened in 1997 in the same physical plant, it was not considered a closure.

METHODOLOGY

To determine the extent, reasons for, and impact of hospital closure, we obtained information
from State licensing and certification agencies, State health planning agencies, State hospital
associations, HCFA data bases, officials associated with closed and nearby hospitals, and local
public officials.

We obtained information on the characteristics of all hospitals, including those that closed in
1997 from the Hospital Cost Report Information System (HCRIS) maintained by HCFA.

Appendix A describes our methodology in further detail.

We conducted our review in accordance with the Quality Standards for Inspections issued by the
President's Council on Integrity and Efficiency.




                                          )))))))))))
                                               2
                                     FINDINGS

Our analysis shows that:

 !	     Thirty-eight general, short-term, acute care hospitals closed in 1997 -- 0.8 percent of all
        hospitals.

 !	     One more hospital closed in 1997 than closed in each of the previous two years. The
        characteristics, reasons for, and impact of closures were similar.

 !      Most hospitals that closed were small and had low occupancy rates.

 !	     Although residents of a few communities had to travel greater distances for hospital care,
        most had emergency and inpatient medical care available within 10 miles of a closed
        hospital.

EXTENT AND CHARACTERISTICS OF CLOSED HOSPITALS

How Many Closed

In 1997, there were 4,805 general, short-term, acute care hospitals in the United States entered on
HCFA's data base as participating in the Medicare program. Thirty-eight hospitals closed in
1997 -- 0.8 percent of all hospitals nationally.

                       HOSPITALS IN THE U.S.:                    4,805
                       CLOSED IN 1997:                           38 (0.8%)

Closure of the 38 general, acute care hospitals reduced inpatient bed supply by 3,882 beds, or 0.5
percent. While 38 hospitals closed in 1997, 2 new hospitals opened, adding 204 beds. In
addition, 1 previously closed hospital reopened in 1997, adding another 37 beds.

Where They Were

The closed hospitals were located in 22 States. California had the greatest number of closures
(6), followed by Texas (4), Florida (3), Michigan (3), Virginia (3), Georgia (2), and Montana (2).
The remaining 15 States had 1 closure each. Appendix B lists the number of hospital closures by
State. Appendix C lists the closures by hospital name and location.

A higher percentage of urban hospitals (1.1%) closed in 1997 than did rural hospitals (0.5%).

                                           URBAN                RURAL
      HOSPITALS IN THE U.S.:                2,666                      2,139
      CLOSED IN 1997:                      28 (1.1%)           10 (0.5%)


                                          )))))))))))
                                               3
What The Closed Hospitals Were Like

Size: Both rural and urban hospitals that closed in 1997 were smaller, on average, than the
national average size. The average number of beds for hospitals nationwide is 154. About 90
percent of the hospitals that closed had fewer beds than the national average. Moreover, half (50
percent) of the hospitals that closed had fewer than 100 beds. In contrast, 10 percent of the
closed hospitals had more beds than the national average.

                                 SIZE OF CLOSED HOSPITALS

                                                  Number of Closed Hospitals

                 Number of Beds             Rural           Urban         Total

                       0 - 30                 5               3          8 (21%)
                      31 - 50                 1               2           3 (8%)
                     51 - 100                 3               5          8 (21%)
                     101 - 150                1               14        15 (40%)
                     151 - 200                0               0                0
                     201 - 300                0               2           2 (5%)
                       301 >                  0               2           2 (5%)
                      Totals                  10              28            38

Rural hospitals that closed had an average of 47.9 beds as compared to an average of 68.2 beds
for all rural hospitals nationally. Urban hospitals that closed had an average of 121.5 beds as
compared to an average of 222 beds for all urban hospitals nationally.




                                         )))))))))))
                                              4
Occupancy: Occupancy rates for closed rural and urban hospitals were lower on average than
the national averages.1

Rural hospitals that closed had an average occupancy rate of 26.9 percent as compared to an
average of 32 percent for all rural hospitals nationally. The average daily census in the year prior
to closure was about 13 patients.

Urban hospitals that closed had an average occupancy rate of 38.8 percent as compared to an
average of 48 percent for all urban hospitals nationally. The average daily census in the year prior
to closure was about 47 patients.




Medicare Utilization: The average Medicare utilization among rural hospitals that closed was
higher than the national average. The average Medicare utilization among urban hospitals that
closed was lower than the national average.2

In rural areas, the average Medicare utilization among hospitals that closed was 65.6 percent
compared to an average of 59 percent for all rural hospitals nationally. About nine Medicare
patients were in the hospital on an average day in the year prior to closure.

In urban areas, the average Medicare utilization among hospitals that closed was 40.5 percent
compared to an average of 48 percent for all urban hospitals nationally. About 19 Medicare
patients were in the hospital on an average day in the year prior to closure.



         1
           Hospital occupancy rate is defined as the actual number of patient days divided by the total bed days
available. National average occupancy rate is defined as the sum of all hospitals’ occupancy rates, divided by the
number of hospitals.
         2
            Average Medicare utilization in closed hospitals is defined as the percent of Medicare patient days compared
to the total patient days for each hospital, summed and divided by the number of hospitals. National average Medicare
utilization is the percent of Medicare utilization of each hospital, summed and divided by the total number of hospitals.

                                                   )))))))))))
                                                        5
Medicaid Utilization: The average Medicaid utilization among rural hospitals that closed was
lower than the national average. The average Medicaid utilization among urban hospitals that
closed was higher than the national average.3

In rural areas, the average Medicaid utilization among hospitals that closed was 7.2 percent as
compared to an average of 12 percent for all hospitals nationally.

In urban areas, the average Medicaid utilization among hospitals that closed was 17.1 percent as
compared to an average of 14 percent for all urban hospitals nationally.




       3
           Medicaid utilization is calculated in the same way as Medicare utilization.

                                                   )))))))))))
                                                        6
REASONS FOR HOSPITAL CLOSURE

As in our previous hospital closure studies, the many health care professionals interviewed
reported no single reason for hospital closure. Hospitals closed because of the interrelated factors
of declining occupancy, lagging revenues, and rising costs. Hospital viability was said to depend
on the stability of all three factors. The weakening of any one may begin a chain reaction
eventually leading to hospital closure.

Although the sequence and combination of these factors were not always the same, generally the
scenario was the same as we reported in our 1996 Hospital Closure report:

The hospital’s occupancy begins to slide because a doctor leaves town or retires, or begins to
admit patients to a more modern hospital not far away. Lengths of stay are down because of
prospective payment pressures and more effective treatment methods. A new ambulatory surgical
center has opened and is also drawing patients away.

While occupancy is declining, the hospital’s costs continue to rise. Competition with other
hospitals means that new, high technology equipment is needed. Nurses and technicians are
demanding higher salaries - and they are getting them from other hospitals nearby. The building
may be deteriorating but the hospital has not been able to fully fund its capital reserves for several
years.

On the other hand, patient care revenue is down because of lower occupancy and more uninsured
or inadequately insured patients. For those who do have coverage, either public or private,
insurers are holding down their costs and further eroding the hospital’s dwindling resources.

Soon the hospital administrator is unable to manage the situation, and the Board examines its
options: continue to go deeper into debt; sell the hospital; merge with another hospital; or close.

The smaller the hospital, the less able it is to resist this downward spiral. As noted earlier, the
average size of the 38 hospitals that closed in 1997 was only 48 beds for rural hospitals and 122
beds for urban hospitals. They are considerably smaller than the national averages.

IMPACT OF HOSPITAL CLOSURE

In communities where hospitals closed in 1997, we determined the

 !     number of patients affected by closure of hospitals,

 !     availability of inpatient care and emergency medical services, and

 !     current use of closed hospital facilities.




                                           )))))))))))
                                                7
How Many Patients Were Affected

For rural hospitals that closed in 1997, the average daily census in the year prior to closure was
about 13 patients. The urban hospitals that closed had an average daily census of about 47
patients.

                                       WHEN HOSPITALS CLOSED,
                                  HOW MANY PATIENTS WERE AFFECTED?

                                                                       Rural Hospitals                 Urban Hospitals
    Average Number of Beds                                                    47.9                            121.5
    Average Occupancy Rate                                                 x 26.9%                            x 38.8%
    Average Number of Patients                                                12.9                              47.1

We analyzed Medicare utilization data to determine the number of elderly patients affected by
hospital closure in 1997. In rural hospitals that closed, about nine Medicare patients were in the
hospital on an average day in the year prior to closure. In the urban hospitals that closed, about
19 Medicare patients were in the hospital on an average day.

                                 WHEN HOSPITALS CLOSED,
                        HOW MANY MEDICARE PATIENTS WERE AFFECTED?

                                                                       Rural Hospitals                 Urban Hospitals
    Average Patient Census                                                    12.9                              47.1
    Average Medicare Utilization Rate                                      x 65.6%                            x 40.5%
    Average Number Medicare Patients                                           8.5                              19.1

What Inpatient Care and Emergency Services Are Available

Inpatient Care: In most communities where a hospital closed in 1997, inpatient hospital care
was available nearby.4




            4
                We assessed availability of inpatient medical care in miles from a closed hospital to the nearest inpatient
facility.

                                                        )))))))))))
                                                             8
                         NEAREST INPATIENT CARE TO CLOSED HOSPITALS

                                                                          NUMBER OF CLOSED
                                                                             HOSPITALS
                                     DISTANCE                               Rural              Urban
                       Within 3 Miles                                     3 (30%)            18 (64%)
                       4-10 Miles                                         1 (10%)             8 (29%)
                       11-20 Miles                                        2 (20%)              2 (7%)
                       21-30 Miles                                        2 (20%)                 0
                       More than 30 Miles                                 2 (20%)                 0
                                           Totals                        10 (100%)          28 (100%)

Rural Areas: Residents in 6 of the 10 rural communities (60 percent) where a hospital closed
could get inpatient hospital care within 20 miles of the closed hospital. Residents of Fort Benton,
Montana and Malta, Montana had to travel 40 and 71 miles respectively for full service inpatient
hospital care. However, these frontier communities converted their closed hospitals into Medical
Assistance Facilities (MAF).5 These MAF facilities provide up to four days of limited inpatient
services.

Urban Areas: In 26 of the 28 urban communities (93%) where a hospital closed in 1997,
residents could get inpatient hospital care within 10 miles of the closed hospital. Residents in 22
of the 28 urban communities (79 percent) where a hospital closed could get inpatient care in the
same community.

Emergency Services: When a hospital closed, the community lost not only inpatient beds, but
also 24-hour emergency services.6

Rural Areas: In 8 of the 10 rural communities (80 percent) where a hospital closed in 1997,
emergency care facilities were available within 20 miles of the closed hospital. Residents of
Summerville, Georgia had to travel 23 miles for 24-hour emergency care and residents of Albany,
Texas had to travel 30 miles for 24-hour emergency care.

Urban Areas: Emergency care facilities were available within 10 miles of the closed hospital in all
but one of the 28 urban communities where a hospital closed in 1997. Residents of Graysville,
Alabama had to travel 12 miles for 24-hour emergency care. In 23 of the 28 urban communities
(82 percent) where a hospital closed, residents could get emergency services in the same town.


            5
          The 1997 Balanced Budget Act changed Medical Assistance Facilities (MAF) to Critical Access Hospitals
(CAH) as part of the Rural Hospital Flexibility Program.

            6
                We assessed availability of emergency medical care in miles from a closed hospital to the nearest emergency
facility.

                                                       )))))))))))
                                                            9
               NEAREST EMERGENCY SERVICES TO CLOSED HOSPITALS

                                                                 NUMBER OF CLOSED
                                                                    HOSPITALS

                         DISTANCE                                Rural             Urban
      Within 3 Miles                                            5 (50%)           19 (68%)
      4-10 Miles                                                1 (10%)          8 ( 28.5%)
      11-20 Miles                                              2 (20%)            1 (3.5%)
      21-30 Miles                                               2 (20%)               0
      More than 30 Miles                                           0                  0
                       Totals                                 10 (100%)          28 (100%)

What the Building Is Used For Now

At the time of our inspection, 25 of the 38 closed hospital facilities (66 percent) were being used
for health-related services. For example:

 !	    Healtheast Midway Hospital in St. Paul Minnesota and Stanislaus Medical Center in
       Modesto, California became outpatient care centers.

 !	    Chattooga County Hospital in Summerville, Georgia and Medcenter One Hospital in
       Mandan, North Dakota are now long-term care facilities.

 !	    Promina Windy Hill Hospital in Marietta, Georgia was converted to a long-term acute
       care hospital. The newly converted facility also provides outpatient surgery.

 !	    Memorial Hospital of Michigan City, Indiana and Genesys Regional Medical Center-St.
       Joseph Campus in Flint, Michigan became specialty hospitals.

 !	    Loudoun Hospital Center in Leesburg, Virginia closed its short-term, acute inpatient care
       services at one facility and opened a new facility six miles away. The former facility still
       provides long-term care and mental health services.

 !	    Phillips County Hospital in Malta, Montana and Missouri River Medical Center in Fort
       Benton, Montana were converted to HCFA sponsored Medical Assistance Facilities. In
       addition to providing limited inpatient care, they provide 24-hour emergency services and
       outpatient care. (The Office of Inspector General released a report on Medical Assistance
       Facilities (OEI-04-92-00731) in July 1993.




                                          )))))))))))
                                               10
                                 APPENDIX A

METHODOLOGY

Extent of Hospital Closure

To determine how many hospitals closed in 1997, we contacted State licensing and certification
agencies, State hospital associations, and State health planning agencies. We also compiled
Health Care Financing Administration (HCFA) data on terminated providers in 1997. When a
closed hospital met the study's definition or when there were questions, we surveyed officials
associated with the closed hospitals, officials associated with hospitals nearest to the closed
hospital, and local public officials.

To determine the number of hospitals in the United States, we used the Hospital Cost Report
Information System (HCRIS) maintained by HCFA. We included only general, short-term, acute
care hospitals under Medicare's Prospective Payment System (PPS) in the universe. There were
4,805 hospitals listed on HCRIS as short-term, acute care, general hospitals for the thirteenth year
of PPS (PPS 13).

Characteristics of Hospital Closure

To analyze characteristics of closed hospitals, we used HCRIS data. We used the latest pre-
closure cost reports. For example, if a hospital closed in May 1997 and its accounting year was
on a January-December cycle, we used the provider's January 1, 1996 to December 31, 1996
report.

Reasons for and Impact of Hospital Closure

We limited our "impact" analysis to the distance from a closed hospital to the nearest still-
operating hospitals and to emergency services. In addition to the HCRIS, we obtained data for
our analysis from interviews with the following sources.

 !     Former hospital administrators, board members, and/or staff of closed hospitals

 !     Hospital administrators and/or staff at the nearest hospitals

 !     Local police, health, and government officials

 !     State health planning agencies

 !     State certification and licensing agencies

 !     State hospital associations




                                         )))))))))))
                                             A-1
                                APPENDIX B


                       1997 HOSPITAL CLOSURES - RANKED BY STATE
               State              Total Closures   Rural Closures   Urban Closures
California                              6                0                6
Texas                                   4                1                3
Florida                                 3                0                3
Michigan                                3                0                3
Virginia                                3                0                3
Georgia                                 2                1                1
Montana                                 2                2                0
Alabama                                 1                0                1
Illinois                                1                1                0
Indiana                                 1                1                0
Kentucky                                1                1                0
Minnesota                               1                0                1
Missouri                                1                0                1
North Dakota                            1                0                1
New Jersey                              1                0                1
New York                                1                0                1
Ohio                                    1                0                1
Pennsylvania                            1                0                1
South Carolina                          1                1                0
Tennessee                               1                1                0
Utah                                    1                0                1
West Virginia                           1                1                0
22 States                          38 Closures       10 Rural         28 Urban




                                     )))))))))))
                                         B - 1

                              APPENDIX C


             1997 HOSPITAL CLOSURES BY NAME AND LOCATION

                                                                          Rural/
              Hospital Name                         City          State   Urban
Longview General Hospital                  Graysville             AL      urban
Newhall Community Hospital                 Newhall                CA      urban
East Bay Hospital                          Richmond               CA      urban
Harbor View Medical Center                 San Diego              CA      urban
Pioneer Hospital                           Artesia                CA      urban
Stanislaus Medical Center                  Modesto                CA      urban
Thompson Memorial Medical Center           Burbank                CA      urban
Parkway West Regional Medical Center       Miami                  FL      urban
University General Hospital                Seminole               FL      urban
Columbia Pompano Beach Medical Center      Pompano Beach          FL      urban
Chattooga County Hospital                  Summerville            GA      rural
Promina Windy Hill Hospital                Marietta               GA      urban
Central Community Hospital                 Clifton                IL      rural
Memorial Hospital of Michigan City         Michigan City          IN      rural
McLean County General Hospital             Calhoun                KY      rural
Thorn Hospital                             Hudson                 MI      urban
Genesys Regional Med Ctr-St. Joseph        Flint                  MI      urban
Genesys Regional Med Ctr-Flint             Flint                  MI      urban
Healtheast Midway Hospital                 St. Paul               MN      urban
Columbia Hospital-North Campus             Springfield            MO      urban
Missouri River Medical Center              Fort Benton            MT      rural
Phillips County Hospital                   Malta                  MT      rural
Medcenter One Mandan                       Mandan                 ND      urban
United Hospitals Medical Center            Newark                 NJ      urban
Union Hospital of the Bronx                Bronx                  NY      urban
Mercy Hospital                             Toledo                 OH      urban
Mt. Sinai Hospital                         Philadelphia           PA      urban
Mullins Hospital                           Mullins                SC      rural
Baptist Hospital of Roane County           Rockwood               TN      rural
Columbia Doctors Hospital East Loop        Houston                TX      urban
Columbia Medical Arts Hospital             Texarkana              TX      urban
Shackelford County Hospital District       Albany                 TX      rural
South Park Hospital                        Lubbock                TX      urban
Paracelsus Regional Hospital and Med Ctr   South Salt Lake City   UT      urban
Loudoun Hospital Center                    Leesburg               VA      urban
Portsmith General Hospital                 Portsmith              VA      urban
Newport News General Hospital              Newport News           VA      urban
Beckley Hospital                           Beckley                WV      rural


                                     )))))))))))
                                         C - 1

